             Office of Inspector General
            Corporation for National and
                     Community Service




Agreed-Upon Procedures Review of
    Corporation for National and
        Community Service
Education Award Program Grants to
Mississippi Department of Education

     OIG Report Number 08-21




             Prepared by:

       REGIS & ASSOCIATES, PC
         1400 Eye Street, N.W.
        Washington, DC 20005
                         OFFICE OF INSPECTOR GENERAL
                                       August 21, 2008


TO:           Kristin McSwain
              Director, AmeriCorps*State and National

              Margaret Rosenberry
              Director, Office of Grants Management


FROM:         Stuart Axenfeld /s/
              Assistant Inspector General for Audit

SUBJECT:      OIG Report 08-21, Agreed-Upon Procedures Review of Corporation for
              National and Community Service Education Award Program Grants to
              Mississippi Department of Education

We contracted with the independent certified public accounting firm of Regis & Associates,
PC, (Regis) to perform agreed-upon procedures in its review of Corporation Education
Award Program grants awarded to Mississippi Department of Education (MDE). The
contract required Regis to conduct its review in accordance with generally accepted
government auditing standards.

Regis is responsible for the attached report, dated March 14, 2008, and the conclusions
expressed therein. We do not express opinions on MDE’s Schedule of Questioned Education
Awards, Accrued Interest Awards and Administrative Fees; conclusions on the effectiveness
of internal controls; or compliance with laws, regulations, and grant provisions.

Under the Corporation’s audit resolution policy, a final management decision on the findings
in this report is due by February 23, 2009. Notice of final action is due by August 21, 2009.

If you have questions pertaining to this report, please call me at 202-606-9360, or Ron
Huritz, Audit Manager, at 202-606-9355.

Attachment

cc:   Frednia Perkins, Division Director, MDE Office of Vocational
        and Technical Education
      William Anderson, Deputy Chief Financial Officer, Financial Management
      Rocco Gaudio, Deputy Chief Financial Officer, Grants and Field Financial Management
      Sherry Blue, Audit Resolution Coordinator
      Lateef Abassi, CPA, Regis & Associates, PC

                 1201 New York Avenue, NW Suite 830, Washington, DC 20525
                   202-606-9390 Hotline: 800-452-8210 www.cncsoig.gov

                     Senior Corps   AmeriCorps   Learn and Serve America
                       OFFICE OF INSPECTOR GENERAL
              CORPORATION FOR NATIONAL AND COMMUNITY SERVICE

                    AGREED-UPON PROCEDURES REVIEW OF
              CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                   EDUCATION AWARD PROGRAM GRANTS TO
                    MISSISSIPPI DEPARTMENT OF EDUCATION

                                                        Table of Contents



Executive Summary ...........................................................................................................            1

       Agreed-Upon-Procedures Scope ...............................................................................                      1

       Background ...............................................................................................................        1


Independent Accountants' Report on Applying Agreed-Upon Procedures........................                                               3

       Results........................................................................................................................   4

       Exhibit A: Schedule of Questioned Education Awards, Accrued Interest Awards and
       Administrative Fees ................................................................................................... 5

       Compliance Testing Results .....................................................................................                  6


Appendix A: Response of Mississippi Department of Education to draft report

Appendix B: Response of Corporation for National and Community Service to draft report
                                EXECUTIVE SUMMARY

The Office of Inspector General (OIG), Corporation for National and Community Service
(Corporation), contracted with Regis & Associates, PC to perform agreed-upon procedures
for Education Award Program (EAP) grants awarded by the Corporation to Mississippi
Department of Education (MDE), solely to assist the OIG in compliance testing of member
files for compliance with grant provisions. These procedures were applied to Grant Number
05EDHMSOOI for Program Years (PYs) 2005-2006, 2006-2007, and 2007-2008. As a result
of applying these procedures, we have questioned amounts totaling $402,139, consisting of
Education Awards of $389,933, student loan accrued interest awards of$4,206, and
administrative fees of $8,000. The detailed results of our agreed-upon procedures (AUP) and
questioned amounts are presented in the Independent Accountant's Report on Applying
Agreed-upon Procedures, Exhibit A., Schedule o/Questioned Education Awards, Accrued
Interest Awards and Administrative Fees.

We performed limited testing on 12 member files during our planning phase and compliance
with grant provisions on 379 member files during the testing phase. The 379 member files
were selected using statistical sampling software. Because of the pervasiveness of findings,
we did not project the sample to the universe of 946 member files.

Compliance Testing Results. The detailed results of our agreed-upon procedures revealed
instances of non-compliance with grant provisions, regulations, or Office of Management
and Budget (OMB) circulars. Those instances of non-compliance are shown in Exhibit B,
the Compliance Testing Results section of the Independent Accountants' Report on Applying
Agreed-Upon Procedures.

Exit Conference. The contents of this report were discussed with MDE management and
the Corporation at an exit conference on May 15,2008. Responses to the draft report were
received from MDE and the Corporation and are included in this report as Appendices A and
B, respectively.

Agreed-Upon Procedures Scope

These agreed-upon procedures covered the objectives of determining whet~er members
enrolled in the program are eligible to serve, are performing service in accordance with grant
terms and conditions and, if certified for an education award, performed the minimum
service hours required during the award period of August 1,2005, through July 31,2007.
We performed our procedures during the period January 9,2008, through March 14,2008.

The OIG's agreed-upon procedures, dated September 2007, provided guidance for
understanding the grantee's operations and testing its compliance with provisions of the EAP
grant. These procedures are described in more detail in the Independent Accountants' Report
on Applying Agreed-Upon Procedures.




                                               1
Background

MDE's Office of Vocational and Technical Education (OVTE) administers the Future
Teachers' Literacy Corps (FTLC), a Corporation-funded AmeriCorps program created in
1997 to reduce the State of Mississippi's teacher shortage and improve student literacy. The
OVTE's responsibilities are to recruit members, provide regional and state-level orientation,
distribute instructional materials, manage and monitor the education award program, and
maintain member files.

Program members, referred to as Teacher Assistants, must complete a total of 1,700 hours of
service to earn an education award of$4,725. The award is used to further the Teacher
Assistant's education or pay for outstanding education loans. Members must be current
Teacher Assistants employed by a Mississippi public elementary school or at a Head Start
Center prior to being accepted into the program. Members earn service hours by performing
regular school duties of a Teacher Assistant, tutoring students during school days, and
performing community service. (See Finding 1 for further discussion.)

The OVTE is located in Jackson, Mississippi. Its management consists of three staff: a
District Director, Program Coordinator, and Special Project Officer.




                                              2
        REGIS
       AS S 0 C I AT E S, PC
   MANAGEM ENT CONSULTANTS &
 C ERTIFIED P UBLIC A CCOUNTANTS



                         INDEPENDENT ACCOUNTANTS' REPORT ON
                           APPLYING AGREED-UPON PROCEDURES

Regis & Associates, PC performed the procedures that were agreed to by the OIG, solely to
assist in compliance testing of member files for Education Award Program (EAP) Grant No.
05EDHMSOOl awarded by the Corporation to MDE for PYs 2005-2006,2006-2007, and
2007-2008. This agreed-upon procedures engagement was performed in accordance with
standards established by the American Institute of Certified Public Accountants and
generally accepted government auditing standards. The sufficiency of these procedures is
solely the responsibility of the OIG. Consequently, we make no representation regarding the
sufficiency of the procedures described below, either for the purpose for which this report
has been requested or any other purpose.

We were not engaged to, and did not perform an examination, the objective of which would
be the expression of an opinion on MDE management's assertions. Accordingly, we do not
express such an opinion. Had we performed other procedures, other matters might have
come to our attention that would have been reported to you.

The procedures that we performed included verifying that:

   •     Enrolled members were U.S. citizens, nationals, or lawful permanent residents and
         obtained high-school diplomas or equivalency certificates.

   •     Criminal background checks were conducted for members with substantial recurring
         contact with children or vulnerable individuals prior to the start of service.

   •     Member contracts were signed by members and included required AmeriCorps
         stipulations.

   •     Member service hours reported in the Corporation's Web-Based Reporting System
         (WBRS) agree to hours recorded on member timesheets.

   •     Members attended the required orientation sessions.

   •     Required mid-term and end-of-term performance evaluations were performed and
         documented.

   •     Member timesheets support member eligibility to earn education awards.

   •     Eligibility for pro-rated education awards, for those members released for compelling
         personal circumstances, was documented in accordance with AmeriCorps regulations.

   •     MDE certified to the National Service Trust that members were eligible to receive
         education awards.


       1400 Eye Street, NW, Suite 425, Washington, D.C. 20005 Tel 202-296-7101 Fax 202-296-7284
   •   Member enrollment, exit, and change-of status forms were completed and approved
       in WBRS within 30 days of members starting and ending service or changing status.

   •   No more than 20 percent of the aggregate of all AmeriCorps member service hours
       was spent in training and educational activities.

   •   Member timesheets, forms, and contracts were in member files and were signed,
       dated, and did not contain discrepancies.

   •   The amount of funds MDE drew down agrees with the amount it is due (number of
       eligible AmeriCorps members multiplied by the fixed grant amount per member, for
       example 300 members multiplied by $400 per member).

Results

As a result of applying the agreed-upon procedures to 391 sampled member files, we
questioned $402,139, consisting of Education Awards, Accrued Interest Awards and
Administrative Fees. The questioned amounts are summarized in Exhibit A, Schedule of
Questioned Education Awards, Accrued Interest Awards and Administrative Fees. The
compliance testing results are summarized in the section of this report titled Compliance
Testing Results (see Page 6). Issues identified included the following:

   1. Members recorded employee paid hours as service hours on their timesheets.

   2. Timesheet hours were not reviewed by the members' supervisors or accurately
      recorded in WBRS.

   3. Members files did not include all the required documentation to support their
      eligibility to participate in the program.

   4. Members did not attend the required orientation sessions.

   5. Inadequate supporting evidence for criminal background checks.

   6. Members' contracts were not signed before service hours were earned.

   7. Members' contracts lacked Corporation required clauses on Civil Rights and Equal
      Opportuni ty.

   8. Members' files were missing mid-term and end-of-term performance evaluations.

   9. MDE did not complete member enrollment and exit forms and enter them into WBRS
      in a timely manner.

   10. MDE drew down more funds than entitled to in Program Year 2005-2006.




                                             4
                                                                                      EXHIBIT A
                      MISSISSIPPI DEPARTMENT OF EDUCATION
                          EDUCATION AWARDS PROGRAM
  SCHEDULE OF QUESTIONED EDUCATION AWARDS, ACCRUED INTEREST
               AWARDS AND ADMINISTRATIVE FEES
                                            PY 2005-2006                    PY 2006-2007
                                                    Questioned                      Questioned
Reasons for Questioning Award           Number of   Education         Number of     Education
Amounts                                 Members      Awards           Members        Awards
Enrollment Eligibility:
No Evidence of US Citizenship               7             $33,075         3                $14,175
No High School Diploma                      5              23,625         2                  9,450
Contract was not signed by Member           1               4,725         2                   9,450
Total Enrollment Eligibility Amounts       13*            $61,425        7*                $ 33,075

Hours Not Supported in WRBS and
Timesheets:
Contract was signed after the member
started service (Full Time A ward)          16             75,600        36                170,100
Contract was signed after the member
started service (Part Time A ward)          0                                                2,655
Partial Timesheet                                             4,725                          4,725
WBRS and time sheet Discrepancy (Full
Time Award)                                 4              18,900         3                 14,175
WBRS and time sheet Discrepancy (Part
Time Award)                                                 4,553         0
Total Education Award Eligibility           22           $103,778        .±l              $191,655

Total Education Awards Questioned          .-3.5         S165!203        AS               S224!130

*The questioned Administrative Fees for these ineligible members is $8,000 (20 * $400).



                 Questioned Accrued Interest           Number of       Accrued
                 Awards:                               Members         Interest
                 Program Year
                 2005-2006                                                      $48
                 2006-2007                                ~                   4,158
                 Total Accrued Interest Awards
                 Questioned                               ~                ~




                                                   5
                    MISSISSIPPI DEPARTMENT OF EDUCATION
                        EDUCATION AWARDS PROGRAM


                          COMPLIANCE TESTING RESULTS

The testing results shown below resulted from applying our agreed-upon procedures to a
limited, judgmentally selected sample of members for planning purposes, combined with a
larger randomly selected sample for fieldwork testing purposes. We statistically sampled and
reviewed a total of379 member files out ofa universe of946 member files to determine
whether AmeriCorps member information and documentation required by the grant
provisions are maintained in the members' files. We noted some instances of noncompliance
with the AmeriCorps and EAP grant provisions. These instances of noncompliance included
the following:

Finding 1.     Members Accumulated Employee Paid Hours As AmeriCorps Hours On
               Their Timesheets

We reviewed timesheets for PYs 2005-2006, 2006-2007, and 2007-2008 to verify whether
members recorded the applicable AmeriCorps hours. We noted that all members in each of
the program years accumulated employee paid hours as AmeriCorps hours on their
timesheets. The grantee's website displays an information page that states in part:

       The AmeriCorps Future Teachers' Literacy Corps provides a $4,725
       education award to teacher assistants who perform their regular school duties
       and other community service activities for a total of 1700 hours of service
       during the school year. The AmeriCorps teacher assistants must provide extra
       hours of tutoring their students in reading during the school day and additional
       hours of community service outside the normal school day. The AmeriCorps
       member continues to receive his/her regular teacher assistant salary and agrees
       to perform the extra duties in return for the $4,725 education award.

According to MDE, the procedure for members to apply employee paid hours to AmeriCorps
hours was included in its budget proposal submitted to the Corporation, and the Corporation
did not object to the procedure before awarding the grant. However, in an e-mail response to
the OIG on this subject, the Corporation's program officer stated, "It is our expectation that
the AmeriCorps Future Teachers' Literacy Corps member would do something different than
the other Teaching Assistants, and we do not expect to see the language as noted in your
correspondence. "

The Corporation's legal counsel has also taken the position that the teacher assistants can use
their paid hours toward AmeriCorps service hours. We disagree that the time spent by
teacher assistants who work in the local schools during the school day, and get paid by the
schools for this work, should have those hours counted toward AmeriCorps service hours.



                                               6
The teacher assistants are first hired by the school and, only thereafter, choose whether or not
to become AmeriCorps members whose work for the school will count toward an education
award. Those who become AmeriCorps members are required to serve at least three
additional hours per week outside of regular classroom time.

MDE solicits existing teacher assistants to become AmeriCorps members. Grant information
indicates that MDE hopes that teacher assistants will use the education award to become
teachers in the future. The teacher assistants are not teaching professionals, nor are they
necessarily first time teacher assistants, and there is no indication in the grant application that
there is a shortage of teacher assistants in this area. Accordingly, this does not meet the
intent of Congress that the professional corps requirement be satisfied by individuals who are
recruited, trained, and placed in a professional position for the first time in a community that
cannot attract enough of these professionals.

From the agreed upon procedures performed, it is clear that the MDE members in question
did not perform 1,700 discrete hours of service to AmeriCorps. They counted as service
hours their paid time as teacher assistants. The grant application was clear that MDE's intent
was to hire teacher assistants and recruit them to become AmeriCorps members. Because the
application included this information, the Corporation should have known that the teacher
assistants would be paid for their time in the classroom, and this same time would also be
counted toward AmeriCorps service hours. When the paid time is subtracted from the total
reported hours, the members fall short of the minimum 1, 700-hour requirement.

Although time sheet hours are divided into two categories, "TA Service" and "Outside
Service", timesheet descriptions do not specifically indicate that certain duties are being
performed as AmeriCorps service hours to clearly distinguish them from regular paid
classroom hours.

Because the program included in its grant application documents its intent to use classroom
time as service hours, we are not questioning the education awards for these members.

Criteria

This grant program is contrary to 45 C.F.R. § 2520.20(a) which states that "[y]our grant must
initiate, improve, or expand the ability of an organization and community to provide services
to address local unmet environmental, educational, public safety ... or other human needs."
This regulation implements Section 2(b )( 1) of the National and Community Service Trust
Act of 1993 (NCSTA), 42 U.S.C. § 12501(b)(1), which defines the purpose of the
AmeriCorps program as to "[m ]eet the unmet human, educational, environmental, and public
safety needs of the United States, without displacing existing workers." For MDE to deem as
AmeriCorps service the hours of work the teaching assistants are already obliged to perform
for the school is contrary to the stated requirements that an AmeriCorps program "initiate,
improve or expand" a service in a community to address an unmet human need.




                                                 7
Although similar in purpose to a Corporation Professional Corps program grant, this program
is not listed as receiving Corporation grant funds under this program, nor does it appear to
meet the criteria for such a grant.

The Corporation's press release of April 5, 2007, National Service Agency Announces Grants
of $83 Million To Support 24, 000 AmeriCorps Members ", lists the Mississippi Department
of Education Grant under the heading "AmeriCorps National Education Award Program
(EAP) - Continuation Grants", not under the "AmeriCorps National Professional Corps-
Continuation Grants." The Corporation awards such grants by direct competition to
organizations that meet the program's criteria, one of which is that the grantee operate its
professional corps program in two or more states. Section 122(a)(8) of the NCSTA describes
a Professional Program as one "that recruits and places qualified participants in positions -
(A) as teachers .. . or other professionals providing service to meet educational ... needs ..
. in communities with an inadequate number of such professionals." 42 U.S.C. §
12572(a)(8). Congress explained that the intent of the program is to recruit and train new
professionals and place them in areas where there were none:

       It is the Committee's intent that such professional corps be eligible for
       funding only if they are placing individuals into such a profession for the first
       time in a community that cannot attract enough of these professionals. It is
       not the intent of the Committee that professionals already serving in these
       professions could apply for funding and post-service educational awards for
       their continued service in the same position in which they have been serving.
       S. Rep. No. 103-70, at 20 (June 29,1993)

Recommendation

       1.      We recommend that the Corporation review the MDE grant documents and
               the program itself, and bring this grantee into compliance with the
               Corporation's governing law and regulations.

Grantee's Response

MDE's management indicated that it relied on the legal opinion provided on November 13,
2000, by the Corporation's legal counsel on applying employee paid hours as service hours.
The Corporation concurred with MDE's position at that time.

Corporation's Response

The Corporation indicated that it will work to ensure that the program is in compliance with
its approved grant award.




                                              8
   Auditor's Comment on Grantee's Response

   MDE's response did not address the required compliance with the Corporation's governing
   law and regulations noted in the finding. The Corporation should take the recommended
   actions.

   Auditor's Comment on the Corporation's Response

   The Corporation's response did not discuss working with the grantee to ensure compliance
   with governing law and regulations noted in the finding. The Corporation should take the
   recommended actions.


   Finding 2.        Timesheet Hours Were Not Reviewed By The Members' Supervisors Or
                     Accurately Recorded In WBRS

   Of 391 member timesheets reviewed, service hours recorded in WBRS did not agree to the
   hours claimed on timesheets for 27 members. We, therefore, questioned $33,075 of
   education awards for seven members who qualified for full awards, and $4,553 for one
   member who qualified for a partial award. We did not include education awards for the
   remaining 19 members because 11 members are still actively serving, 6 members' amounts
   were questioned in Finding No.6, and 2 members' amounts were questioned in Finding 3.

   In addition, we examined timesheets for evidence of supervisory approval. We noted the
   following:

                                              Number of
                                  Number of    Member      Questioned
      Member Timesheet            Members      Awards      Education              Comment
        Exceptions                            Questioned    Awards

No timesheets in member files        2            0            0        No awards earned

Incomplete set of time sheets        23           2          $9,450     11 members did not earn
                                                                        awards and the remaining 10
                                                                        members were already
                                                                        questioned in other findings

Member files included time           14           0            0        See first paragraph of Finding
sheets that were not signed or                                          Number 2
dated by the member or
supervisor.

Member files included time           64           0            0        Some of these time sheets were
sheets that were not signed by                                          signed before the reporting
the member and/or supervisor in                                         period, or one to four months
the correct reporting period.                                           after the reporting period




                                                 9
Member files included time          101            o             o        See first paragraph of Finding
sheets that were signed by                                                Number 2
someone other than the site
supervisor or principal indicated
on the members ' application.

   We also questioned $2,427 in student loan accrued interest awards for one member.

   MDE does not comply with its policies and procedures to ensure that members submit their
   timesheets within the time window provided in its training manual, and maintains timesheets
   in member files or verifies time and attendance records were signed and dated both by the
   member and an individual with oversight responsibilities for the member. MDE also did not
   have procedures in place to verify the accuracy of hours recorded in WBRS and on time
   sheets. MDE could not explain discrepancies between hours recorded on the timesheets and
   in WBRS, or why timesheets were missing.

   Without procedures to verify member activities or timesheet accuracy, the potential exists
   that members may perform prohibited activities or may receive unearned education awards.

   Criteria

   The AmeriCorps 2005-2006 Education Award Program Grant Provisions, Section IV F. 1,
   Terms of Service, Program Requirements, states the following for eligibility for an education
   award:

       "Each Program must, at the start of the term of service, establish the guidelines and
       definitions for the successful completion of the Program year, ensuring that these
       Program requirements meet the Corporation's service hour requirements as defined
       below:

       a. Full-Time Members. Members must serve at least 1700 hours during a
          period of not less than nine months and not more than one year.
       b. Half-Time Members. Half-time members must serve at least 900 hours
          during a period of one or two years as indicated in the approved budget.
       c. Reduced Half-Time Members. Reduced half-time members must serve at
          least 675 hours over a period not to exceed one year.
       d. Quarter-Time Members. Quarter-time members must serve at least 450
          hours over a period not to exceed one year.
       e. Minimum Time Members. Minimum time members must serve at least
          300 hours over a period not to exceed one year."

   The FTLC Full-time Member Policy and Procedures Manual requires the following:

             The Mississippi Department of Education will keep time and attendance records on
            all AmeriCorps members in order to document their eligibility for in-service and post-
            service benefits. Time and attendance records must be signed and dated both by the




                                                  10
       member and an individual with oversight responsibilities for the member. This will
       be the Supervising Classroom Teacher, Principal, or Director.

FTLC's Training Manual, page 6, also includes monthly timesheet due dates.

AmeriCorps requirements do not specifically address timesheet procedures. It is, however,
good business practice to initial changes, sign and date documents, and check the accuracy of
hours recorded on timesheets. Without procedures to verify member activities or timesheet
accuracy, the potential exists that members may perform prohibited activities or may receive
unearned education awards. By initialing changes, accountability is maintained that the
changes are consistent with the members' and management's intentions.

Recommendations

We recommend that the Corporation:

       2a.   Disallows and recovers education awards and related interest for members who
             did not serve sufficient hours to earn the education and accrued interest award.

       2b.   Requires MDE to enhance its procedures to ensure the review and approval of
             hours recorded on timesheets.

       2c.   Requires MDE to adhere to its policies and procedures that complete timesheets
             are to be maintained in member files.

Grantee's Response

MDE's management indicated that it will take extra precautions when reviewing timesheets
to ensure paperwork contains all appropriate signatures. MDE management also indicated
that it developed a "Timesheet Discrepancy Form" in Program Year 2006-2007 for returning
incorrect timesheets to members for review and correction.

Corporation's Response

The Corporation did not provide a response to this finding.

Auditor's Comment on Grantee's Response

MDE's response did not address all the deficiencies noted in the finding. The Corporation
should take the recommended actions.




                                              11
      Finding 3.        Member Files Did Not Include All Required Documentation To Support
                        Eligibility To Participate In The Education Awards Program

      We tested member files to verify that enrolled members were u.s. citizens, or lawful
      permanent residents. In addition, we verified whether member files include documentation
      to support evidence of receiving a high school diploma or an agreement to obtain an
      equivalency certification. We noted the following:


                                                Member         Questioned     Questioned
                                   Number of    Awards         Education     Administrative
Member Eligibilit~ Exce~tions      Members     Questioned       Awards           Fees              Comment
Member files did not include
evidence of U.S . citizenship or                                                              47 members earned
lawful resident status                57            10         $47,250.00        $4,000       no awards


Member files did not include                                                                  44 members did not
documentation to support high                                                                 earn awards and the
school diplomas or an agreement                                                               remaining six
to obtain an equivalency              57            7          $33,075.00        $2,800       members awards
certification                                                                                 were already
                                                                                              questioned in other
                                                                                              findings

      MDE did not comply with its policies and procedures to ensure that applicants meet
      AmeriCorps member eligibility requirements before starting service.

      Programs that do not maintain documentation to ensure that applicants meet the citizenship
      or residency eligibility requirements are at risk of enrolling members who may not be eligible
      to participate in the EAP program.

      Criteria

      The AmeriCorps 2005-2006 Education Award Program Grant Provisions, Section IV.M.2,
      states in part:

               Verification. To verify u.S. citizenship, U.S. national status or u.S. lawful
               permanent resident alien status, the grantee must obtain and maintain documentation
               as required by 45 C.F .R. §2522.200(b) and ( c). The Corporation does not require
               programs to make and retain copies of the actual documents used to confirm age or
               citizenship eligibility requirements, such as a driver's license, or birth certificate, as
               long as the grantee has a consistent practice of identifying the documents that were
               reviewed and maintaining a record of the review.

      According to Title 45 CFR § 2522.200, What are the eligibility requirements for an
      AmeriCorps participant?, every AmeriCorps participant is required to be a citizen, national,
      or lawful permanent resident alien of the United States. It also states that "[e]very




                                                         12
AmeriCorps participant is required to obtain a high-school diploma or equivalency
certificate. "

FTLC's Full-time Member Policy and Procedures Manual requires the following:

   AmeriCorps Program staff persons will ensure that each potential member is eligible. To
   be eligible to enroll in AmeriCorps, the individual must:

   1. Be a U.S. citizen or U.S. national or a lawful permanent resident alien of the United
      States;

   2. Be at least 17 years old (or at least 16 years of age if the member is out of school and
      a participant in a youth corps or a program for certain disadvantaged individuals); and

   3. Have a high school diploma or GED or agree to obtain one while serving.

   AmeriCorps Program staff persons will ascertain and document the citizenship/lawful
   permanent resident alien status of the members, a record of which will be kept in the
   member's file and will be noted on the member checklist in the member Information
   Profile in WBRS.

Recommendations

We recommend that the Corporation:

       3a.   Requires MDE to enhance controls to ensure that adequate documentation is
             maintained to verify member eligibility.

       3b.   Disallows and recovers Education Awards, Accrued Interest Awards and
             Administrative Fees for members determined to be ineligible.

Grantee's Response

MDE's management indicated that the member's signature on the Enrollment Form provides
self-certification for U. S. citizenship or lawful permanent residency and a high school
diploma or its equivalent.

Corporation's Response

The Corporation indicated that its regulations allow programs to accept self-certification
from applicants who have a high school diploma. However, the Corporation was silent in its
response on lack of evidence to support U.S. citizenship or lawful legal residency.




                                             13
Auditor's Comment on Grantee's Response

MDE did not provide documentation supporting that the members with questioned education
awards are u.s. citizens or lawful legal residents. The Corporation should take the
recommended actions.

Auditor's Comment on the Corporation's Response

The Corporation did not address all the deficiencies noted in the finding. The Corporation
should take the recommended actions.


Finding 4.     Members Did Not Attend Required AmeriCorps Orientation Sessions

We reviewed AmeriCorps orientation sign-in sheets to determine whether the enrolled
members received the required orientation. We noted that 246 of the 391 (63 percent)
sampled members did not attend the AmeriCorps orientation sessions.

MDE did not comply with its policy and procedures for providing orientation. As a result,
the risk of members not properly fulfilling AmeriCorps requirements is increased.

Criteria

FTLC's Policy and Procedures Manual states, "The Mississippi Department of Education is
responsible for providing member orientation, regional and statewide training, and technical
assistance." It further states:

       This orientation shall be designed to enhance member security and sensitivity to the
       community. Orientation will cover member rights and responsibilities, including the
       Program's code of conduct, prohibited activities (including those specified in the
       regulations), requirements under the Drug-Free Workplace Act (41 U.S.C. 701 et.
       seq.) suspension and termination from service, grievance procedures, sexual
       harassment, other non-discrimination issues, and other topics as necessary.

Recommendation

4.     We recommend that the Corporation requires MDE to adhere to its policies and
       procedures regarding members' documented attendance at orientation sessions, and
       provide evidence to the Corporation of its compliance with this requirement.

Grantee's Response

MDE's management indicated that, following the retirement of the program administrator in
2003, the program underwent six administrative changes until Program Year 2006-2007.
The other administrators (2003-2006) did not attend New Directors' Training. Therefore,
staff was unaware of the mandatory provision to provide Pre-service Orientation prior to



                                             14
enrolling members. Members did receive Orientation Training, not prior to their enrollment
in WBRS, but within the 30-day period.

Corporation's Response

The Corporation did not provide a response to this finding.

Auditor's Comment on Grantee's Response

MDE's management discussed its prior actions but did not indicate any corrective actions on
the noted findings. The Corporation should take the recommended actions.


Finding 5.     Inadequate Evidence To Support Whether Criminal Background Checks
               Were Performed

MDE could not provide supporting documentation to verify that criminal background checks
were conducted for 305 of the 391 members tested (78 percent). We also noted that 25 files
contained criminal!child abuse background checks that were three to four years old.

MDE relied on the school districts in which the members are teaching to conduct criminal
background checks as part of the member screening process, but MDE did not verify with the
school districts that background checks were actually conducted before allowing the member
to start service.

Lack of documentation of required criminal background checks or outdated documents
increase the risk associated with members who should not be working with children, thus
resulting in a potential liability for the school districts, MDE, and the Corporation . .

Criteria

The AmeriCorps 2005-2006 Education Award Program Grant Provisions, Section IV.C.
Member Enrollment, states:

       Criminal Background Checks. Programs with members (18 and over) or grant-
       funded employees who, on a recurring basis, have access to children (usually defined
       under state or local law as un-emancipated minors under the age of 18) or to
       individuals considered vulnerable by the program (i.e. the elderly or individuals who
       are either physically or mentally disabled), shall, to the extent permitted by state and
       local law, conduct criminal background checks on these members or employees as
       part of the overall screening process.

FTLC's Policy and Procedures Manual states: "The Mississippi Department of Education
will ensure, to the extent permitted by state or local law, that we maintain background check
documentation for members covered by this provision in the member's files or other
appropriate file."



                                              15
Recommendations

We recommend that the Corporation:

       5a.   Require MDE to develop and implement policies and procedures for retaining
             documentation to show that results of criminal record checks were considered as
             part of the member screening process; and

       5b.   Require MDE to maintain the most recent criminal record check in the
             appropriate file as provided by state or local law .

Grantee's Response

MDE's management made reference to the Mississippi State law that requires background
checks on Teacher Assistants. It also referenced a memorandum of understanding MDE has
with the school districts for participation in the AmeriCorps Future Teachers' Literacy Corps.
It requires the school districts to certify that background checks are completed on Teacher
Assistants participating in the program.

Corporation's Response

The Corporation did not provide a response to this finding.

Auditor's Comment on Grantee's Response

MDE's response is partially adequate. The Corporation should take the recommended action
5b, which requires MDE to maintain documentation of the most recent criminal record check
in the appropriate member files.


Finding 6.     Members' Contracts Were Not Signed Before Service Hours Were
               Earned

We found the following exceptions with respect to member contracts:




                                              16
                                Number     Number of    Questioned     Questioned      Questioned
 Member Contract                   of       Member      Education     Administrative    Accrued
   Exceptions            py     Affected    Awards        Award         Amount          Interest      Comment
                                Members    Questioned    Amounts                        Amount
Members began           2005-      29         16         $75,600                          $48       From the
serving and recording   2006                                                                        remaining 13
service hours before                                                                                members, 5
they had signed                                                                                     earned the
member contracts                                                                                    required hours
                                                                                                    after signing
                                                                                                    contract, 5 did
                                                                                                    not earn
                                                                                                    awards, and
                                                                                                    the remaining
                                                                                                    3 were already
                                                                                                    questioned in
                                                                                                    other findings

                        2006-     50          36         $170,100                      $1,731       2 members
                        2007                                                                        earned the
                                                                                                    required hours
                                                                                                    after signing
                                                                                                    contract, 11
                                                                                                    members did
                                                                                                    not earn
                                                                                                    awards, and
                                                                                                    the remaining
                                                                                                    1 member was
                                                                                                    already
                                                                                                    questioned in
                                                                                                    other findings
                        2006-      1           1             $2,655                                 This member
                        2007                                                                        qualified for a
                                                                                                    partial award
                                                                                                    for compelling
                                                                                                    personal
                                                                                                    circumstances.
                                                                                                    The member
                                                                                                    started service
                                                                                                    8/1/06 and
                                                                                                    signed contract
                                                                                                    on 8/21/06.
                        2007-     24           0               0            0                       Some of the
                         2008                                                                       members
                                                                                                    exited without
                                                                                                    earning an
                                                                                                    award and
                                                                                                    some are still
                                                                                                    serving in the
                                                                                                    program
Member files did not    2005-      1           0               0            0                       Some of the
include member           2006                                                                       members
contract                                                                                            exited without
                                                                                                    earning an



                                                        17
                                   Number     Number of    Questioned     Questioned      Questioned
 Member Contract                      of       Member      Education     Administrative    Accrued
   Exceptions               py     Affected    Awards        Award         Amount          Interest      Comment
                                   Members    Questioned    Amounts                        Amount
                                                                                                       award and
                                                                                                       some are still
                                                                                                       serving in the
                                                                                                       program
Member files include                                                                                   These amounts
member contract that       2005-                                                                       are being
was not signed by the       2006      1           1             $4,725       $400                      questioned for
member.                                                                                                one member
                                                                                                       These amounts
                           2006-                                                                       are being
                           2007       2           2             $9,450       $800                      questioned for
                                                                                                       two members
Certifying Official        2005-     139          0               0            0                       We are not
did not date               2006                                                                        questioning
member's contract                                                                                      any amounts
                                                                                                       since members
                                                                                                       are not
                                                                                                       responsible for
                                                                                                       the Certifying
                                                                                                       Official not
                                                                                                       dating the
                                                                                                       contract.
                           2006-     137          0               0            0                       We are not
                           2007                                                                        questioning
                                                                                                       any amounts
                                                                                                       since members
                                                                                                       are not
                                                                                                       responsible for
                                                                                                       the Certifying
                                                                                                       Official not
                                                                                                       dating the
                                                                                                       contract.

          MDE did not comply with AmeriCorps provisions. As a result, applicants who record
          service time before contracts are in place may receive education awards and interest
          forbearance to which they are not entitled.

          Criteria

         The AmeriCorps 2005-2006 Grant Provisions, Section IV.C., AmeriCorps Special
         Provisions, Member Enrollment, states in part:

              1. Member Enrollment Procedures.

                      a.     An individual is enrolled as an AmeriCorps member when all of the following
                             have occurred:
                             1.     He or she has signed a member contract;


                                                           18
                   11.     The program has verified the individual's eligibility to serve;
                   111.    The individual has begun a term of service; and
                   IV.     The program has approved the member enrollment form in WBRS.

         b.        Prior to enrolling a member in AmeriCorps, programs make commitments to
                   individuals to serve. A commitment is defined as signing a member contract
                   with an individual or otherwise entering into a legally enforceable
                   commitment as determined by state law.

         *         *       *
   2. AmeriCorps Members. The grantee must keep time and attendance records on all
   AmeriCorps members in order to document their eligibility for in-service and post-
   service benefits. Time and attendance records must be signed and dated both by the
   member and by an individual with oversight responsibilities for the member.

Recommendations

We recommend that the Corporation:

   6a.        Ensure that MDE permits only members with signed contracts, and meeting the
              criteria of an AmeriCorps member, to record service hours. The Corporation
              should test the eligibility of members enrolled during the resolution period to ensure
              compliance.

   6b.        Recover from MDE education awards, related interest, and administrative fees for
              the ineligible members.

Grantee's Response

MDE's management indicated that the finding resulted from the disaster it suffered during
Hurricanes Katrina and Rita in 2005. Further, it stated that a waiver was sought and
approved by the Corporation that allowed MDE to operate outside the parameters of the
AmeriCorps 2005-2006 provisions.

Corporation's Response

The Corporation indicated that the grant provisions require a member contract for the
purpose of informing members of their rights and responsibilities and as an element of
establishing an obligation in the National Services Trust, but not as a pre-condition for
recording service hours. The Corporation did not agree that the performance of service prior
to signing a member contract is an appropriate basis on which to question education awards.
It revised the provisions in 2008 to eliminate any ambiguity regarding contract and
enrollment requirements.




                                                   19
Auditor's Comment on Grantee's Response

MDE's response did not address the findings noted, nor did it provide evidence of the
waiver. We found instances in 2006-2007 and 2007-2008 program years in which members
recorded hours before their contracts were signed. The Corporation should take the
recommended actions.

Auditor's Comment on the Corporation's Response

The Corporation's response contradicts its Member Enrollment Procedures cited in the
criteria above. The Corporation should take the recommended actions.


Finding 7.     Member Contracts Lacked Corporation Required Clauses On Civil
               Rights And Equal Opportunity

The member contract used by MDE for Program Years 2005-2008 did not include the
AmeriCorps requirement that Civil Rights and Equal Opportunity clauses be stipulated in the
contracts. All 391 member files tested lacked these requirements.

MDE did not comply with the AmeriCorps Grant Provisions. MDE noted that they would
revise the member contract to ensure that it meets the AmeriCorps requirements. By not
including these requirements in the member contracts, members may not be aware of their
rights under Civil Rights and Equal Opportunity as they relate to the EAP program.

Criteria

The AmeriCorps 2005-2006 Education Award Program Grant Provisions, Section V.F.3,
Public Notice ofNon discrimination, states: "The grantee must include information on civil
rights requirements, complaint procedures and the rights of beneficiaries in member
contracts, handbooks, manuals, pamphlets, and post in prominent locations, as appropriate."

Recommendation

7.     We recommend that the Corporation require MDE to include all AmeriCorps
       requirements in member contracts.

Grantee's Response

MDE's management indicated that the Civil Rights and Equal Opportunity clauses are
included in the AmeriCorps Member Handbook that is distributed and reviewed during Pre-
Service Orientation Training. It has also made the required revision to include the clauses in
the 2008-2009 Member Contract.




                                              20
Corporation's Response

The Corporation indicated that the grantee is in compliance as long as it has included the
required information in one of the required formats .

Auditor's Comment on Grantee's Response

Actions taken by MDE are responsive to the recommendation.

Auditor's Comment on the Corporation's Response

We concur with the Corporation's response. However, the Corporation should follow up to
ensure that the planned distribution of the updated member contract occurred and that it is
being used by the members.


Finding 8.     Member Files Did Not Include Mid-Term And End-of-Term Evaluation
               Forms

We found that 335 member files tested (83 percent) did not include the required evaluations.

MDE did not comply with AmeriCorps provisions and its policies and procedures in
conducting and maintaining mid-term and end-of-term evaluations.

Without final evaluations, MDE may not be able to determine whether a member
satisfactorily completed his or her term of service, is eligible for an education award, or is
eligible to serve a second term. Properly completed evaluations are necessary to ensure that
members are eligible for additional service terms and that grant requirements have been met.

Criteria

The AmeriCorps 2005-2006 Grant Provisions, Section IV. D., AmeriCorps Special
Provisions, Training, Supervision, and Support, states in part, "6. Performance Reviews.
The grantee must conduct and keep a record of at least a midterm and end-of-term written
evaluation of each member's performance for full and half-time members and an end-of-term
written evaluation for less than half-time members."

Title 45 CFR § 2522.220 (d), Participant performance review, states that, "For the purposes
of determining a participant's eligibility for a second or additional term of service and/or for
an AmeriCorps education award, each AmeriCorps program will evaluate the performance of
a participant mid-term and upon completion of a participant's term of service. The end-of-
term performance evaluation will assess the following: (1) whether the participant has
completed the required number of hours described in paragraph (a) of this section".




                                              21
FTLC' s Policy and Procedures Manual states, "The Mississippi Department of Education
will conduct and keep a record of at least a midterm and end-of-term written evaluation of
each member's performance. The evaluation will focus on:

   •     Whether the member has completed the required number of hours;
   •     Whether the member has satisfactorily completed assignments, and
   •     Whether the member has met other performance criteria that were clearly
         communicated at the beginning of the term of service."

Recommendations

We recommend that the Corporation:

   8a.   Ensures that MDE complies with AmeriCorps requirements and its policies and
         procedures by performing and documenting mid-term and end-of-term evaluations
         for all members.

   8b.   Follows up to verify that required evaluations were completed for all members.

Grantee's Response

MDE's management referenced the AmeriCorps Education Awards Program 2005 and 2006
Grant Provisions regarding this finding. Page 3, Section I. Changes to the 2005 and 2006
AmeriCorps Education Awards Program (EAP) Provisions states, "The following sub-
sections have been deleted from both the 2005 and 2006 EAP Provisions: Section IV. E.
Training, Supervision and Support - Performance Reviews."

Corporation's Response

The Corporation concurred with this finding. It accepted responsibility for lack of adequate
information or guidance provided to EAP grantees on conducting member evaluations. The
Corporation indicated that it has taken measures and will continue to ensure that grantees
conduct evaluations as required under the regulations.

Auditor's Comment on Grantee's Response

MDE's response did not address the deficiencies noted in the finding. The Corporation's
appropriations act for Fiscal Year 2004 allowed the Corporation to administer EAP grants as
fixed-price awards under the AmeriCorps appropriation, but exempted them from some of
the AmeriCorps requirements, such as the required provision of a living allowance and
matching requirements. The appropriations statute did not specifically exempt EAPs from
the required end-of-term evaluation to determine whether a member's service was
satisfactory, and thus whether the member was eligible to serve a subsequent term. Thus, as
of Fiscal Year 2004, EAPs were subject to the end-of-term evaluation requirement. The
Corporation should take the recommended actions.




                                             22
Auditor's Comment on the Corporation's Response

The Corporation's response and actions are adequate.


Finding 9.    MDE Did Not Complete Member Enrollment And Exit Forms And Enter
              Them Into WBRS In A Timely Manner

We noted the following:

   •   MDE did not complete 211 enrollment forms or enter them into WBRS within 30
       days of service starting dates.

   •   We were unable to verify whether enrollment forms were completed and approved in
       WBRS within 30 days of starting service for two members whose forms were
       unsigned and undated.

   •   MDE did not complete 59 exit forms or enter them in WBRS within 30 days of
       members completing service.

   •   Exit forms were not completed and approved in WBRS within 30 days of exiting the
       program for 83 members.

MDE did not follow AmeriCorps requirements and provisions for completing and submitting
enrollment and exit forms. Without timely submission of these forms, the Corporation
cannot properly maintain timely and accurate member records.

Erroneous member status may affect the computation of service hours for successful
completion of the program and eligibility for education awards. Late submission of
enrollment and exit forms would not allow MDE to properly review, track, and monitor
member activities and accomplish the objectives of the AmeriCorps program.

Criteria

The AmeriCorps 2005-2006 Grants Provisions, Section IV.O. (3), states in part:

   AmeriCorps Member-Related Forms. The grantee is required to submit the following
   documents to the National Service Trust on forms provided by the Corporation. Grantees
   and sub-grantees may use WBRS to submit these forms electronically. Programs using
   WBRS must also maintain hard copies of the forms.

   a. Enrollment Forms. Enrollment forms must be submitted no later than 30 days after a
       member is enrolled.

   b. Change of Status Forms. Member Change of Status Forms must be submitted no later
      than 30 days after a member's status is changed. By forwarding Member Change of



                                            23
        Status Forms to the Corporation, State Commissions and Parent Organizations signal
        their approval of the change.

     c. ExitIEnd-of-Term-of-Service Forms. Member ExitiEnd-of-Term-of-Service Forms
         must be submitted no later than 30 days after a member exits the program or finishes
         his/her term of service.

Recommendation

9.      We recommend that the Corporation ensures that MDE implements controls to ensure
        that member enrollment, exit, and change-of-status forms are maintained in member
        files, and entered into WBRS or My AmeriCorps Portal in a timely manner.

Grantee's Response

MDE's management provided information on a prior monitoring visit by the Corporation in
January 2007, which confirms the existence of the noted findings. MDE stated that it has
been instructed to develop and implement a written procedure to ensure that all program staff
are aware of the 30-day rule, and to ensure that all members are properly enrolled and exited
in WBRS within 30 days. It also indicated that, during Pre-Service Orientations, site visits
and other training, members are reminded of the 30-day rule.

Corporation's Response

The Corporation did not provide a response to this finding.

Auditor's Comment on Grantee's Response

MDE did not indicate any action to address the deficiencies discussed in the finding. Its
response is silent on the development and implementation of a written procedure
recommended by the Corporation during the monitoring visit and by this review. The
Corporation should take the recommended actions.


Finding 10.     MDE Drew Down More Funds Than Entitled To In Program Year 2005-
                2006

MDE drew down $4,255 in excess grant funds in one program year. This instance of non-
compliance appears to be the result of inadequate grant drawdown controls. MDE concurred
that the overdrawn grant funds and adjustment of the overdrawn amount will be applied to
the PY 2006-2007.

Criteria

The AmeriCorps 2005-2006 Education Award Program Grant Provisions, Section V.A. ,
states in part:



                                              24
       Accountability of Grantee. The grantee has full fiscal and programmatic
       responsibility for managing all aspects of the grant and grant-supported activities,
       subject to the oversight of the Corporation. The grantee is accountable to the
       Corporation for its operation of the AmeriCorps Program and the use of Corporation
       grant funds. The grantee must expend grant funds in a judicious and reasonable
       manner, and it must record accurately the service activities and outcomes achieved
       under the grant.

The AmeriCorps 2005-2006 Education Award Program Grant Provisions, Section V. K,
Fixed Amount Award, also states in part:

       Education Award Program awards are for fixed amounts and are not subject to the
       Federal Cost Principles. The fixed amount is based on the approved number of
       members and is funded at the amount per full-time equivalent member specified in
       the award. The award is dependent upon the grantee's performance under the terms
       and conditions of the award. These include properly enrolling the number of
       members as specified in the award to carry out the activities and to achieve the
       specific project objectives as approved by the Corporation. Failure to enroll the
       number of members approved in the grant award may result in a reduction of the
       amount of the grant.

Recommendations

We recommend that the Corporation:

   lOa. Requires MDE to ensure that the drawdowns of grant funds comply with
        Ameri Corps provisions.

   lOb. Recovers the overdrawn amount or offsets the amount against a future grant award.

Grantee's Response

MDE's management concurred with the finding and requested that its accounting office
adjust and apply the overdrawn amount to the appropriate program year.

Corporation's Response

The Corporation did not provide a response to this finding. However, the Corporation should
verify that the overdrawn amount is applied to the appropriate program year.

Auditor's Comment on Grantee's Response

MDE's response and actions are adequate.




                                            25
This report is intended for the information and use of the Office of Inspector General,
Corporation management, MDE, and the U.S. Congress. However, this report is a matter of
public record and its distribution is not limited.




Regis & Associates, PC
March 14, 2008




                                           26
            APPENDIX A


             RESPONSE OF
MISSISSIPPI DEPARTMENT OF EDUCATION
          TO DRAFT REPORT
           Mississippi Department of Education
           Hank M. Bounds, State Superintendent of Education
           Kristopher Kaase, Ph.D., Deputy State Superintendent. Instructional Programs and Services
           Office of Vocational Education and Workforce Development. Mike Mulvihill. Interim Associate State Superintendent
           Frednia D. Perkins. Division Director. Student and Professional Services. 601-359-2950. Fax: 601-359-3481




#09.015


August 4, 2008

Ms. Carol Bates, Assistant Inspector General for Audit
Corporation for National and Community Service
Office of Inspector General
1201 New York Avenue, NW; Suite 830
Washington, DC 20525

Dear Ms. Bates:

The Mississippi Department of Education appreciates the opportunities provided for Teacher
Assistants through the AmeriCorps Education Award Program (EAP) Grant. The EAP Grant has
also provided much needed assistance to reverse the teacher shortage. The annual salary for
Teacher Assistants in Mississippi is $12,500 (MS Code Section 37-21-7(6)). The Education
Award is a major incentive for Members to work toward achieving a familiar career path to
explore their potential as educators.

We appreciate the opportunity to respond to the Agreed-Upon Procedures Review of
Corporation for National and Community Service Education Award Program Grants Awarded
to Mississippi Department of Education (MDE) prepared by Regis & Associates, PC. In some
instances, it is recommended that the Corporation recover Education Awards. However, all
funds supplied through the EAP Grant have been used to provide Member training and
development. According to the u.S. Census Bureau, Mississippi's per capita income is $15,853
and the median household income is $34,278; Mississippi ranks #2 in the Nation for the highest
percentage of children under 18 years old below the poverty level; Mississippi ranks #1 in the
Nation for the highest percentage of people below the poverty level in the past 12 months;
Mississippi ranks #51 in the Nation for the lowest median family income; and Mississippi ranks
#17 in the Nation among the highest percentage of households with cash public assistance
income. Subsequently, Mississippi is one of the most economically disadvantaged States in the
Nation and is unable to repay any funds. In addition, the program has undergone six (6)
administrative changes. Over the course of this reorganizational period, specifically within the
2006-2007 Program Year, significant programmatic strides and advances have been made to
ensure the Program complies with all federal policies and procedures, regulations, and
guidelines.




              Central High School Building. 359 North West Street. P.O. Box 771 • Jackson, MS 39205-0771
#09.015
Page 2

MDE is committed to encouraging AmeriCorps Members to become educators and providing the
appropriate support in their pursuit of this goal. The AmeriCorps EAP Grant provides MDE the
opportunity to achieve its goal of placing a highly qualified teacher in every classroom. Should
you require any additional clarification or information, please give me a call at 601.359.2950 or
email meatfperkins@mde.k12.ms.us.

Sincerely,




Frednia Perkins, Division Director
Student and Professional Services

FDP:kpb

Attachments

c: Ronald Huritz
   Claire Mareno
   Dawn Marie Williams
   Kendra Bell
   Willie McCluskey
   Linda Smith
   Janie Jones
   Kristopher Kaase
          Mississippi Department of Education
Office of Vocational Education and Workforce Development




                     Response to
Agreed-Upon Procedures Review of Corporation Education
        Award Program Grants Awarded to the
         Mississippi Department of Education




                          Prepared by:
          Division of Student and Professional Services
                    Mississippi Department of Education
     Response to Review of Corporation Education A ward Program Grants
                         DRAFT AUDIT REPORT


I.   Members recorded employee paid hours as service hours on their timesheets.
     Please review the memorandum dated November 13,2000.

2.   Timesheet hours were not reviewed by the Members' supervisors or accurately
     recorded in WBRS.
     In some instances, whenever Members miscalculated hours, MOE made corrections
     before entering data into WBRS. Staff then initialed changes on the Timesheet(s) with
     the correct hours listed. MOE will take extra precaution when reviewing Timesheets to
     ensure paperwork contains all appropriate signatures. A Timesheet Discrepancy Form
     was developed in Program Year 2006-2007 for returning incorrect Timesheets to
     Members for review and correction.

3.   Member files did not include all required documentation to support eligibility to
     participate in the Education Awards Program.
     The former director instructed staff to enroll Members into WBRS with the
     Enrollment Form only. She informed staff that other documents could be obtained at a
     later date.

     Members' signature on the Enrollment Form provides self-certification for U. S.
     citizenship or lawful permanent residency, and high school diploma or its equivalent.
     Please note CNCS AmeriCorps Enrollment Form, Part 2, Self-Certification Statement.

4.   Members did not attend the required AmeriCorps Pre-Service Orientation Sessions.
     The original administrator of the AmeriCorps Education Awards Program retired in
     August 2003. After his departure, the program underwent six (6) administrative
     changes until Program Year 2006-2007 (November 2006). The other administrators
     (2003-2006) did not attend the New Directors' Training. Therefore, staff was unaware
     of the mandatory provision to provide Pre-service Orientation prior to enrolling
     Members. Members did receive Orientation Training, but not prior to enrolling them
     in WBRS, but within the 30-day period. The current Division Director for Student and
     Professional Services has been unable to attend the AmeriCorps New Directors'
     Training, due to other programmatic obligations.

5.   Inadequate evidence to support whether Criminal Background Checks were performed.
     See Mississippi State Law regarding Criminal Background Checks. See also Page 2:
     ~alifications of the Memorandum of Agreement and email correspondence with the
     AmeriCorps Program Officer.




                                                                                  Page I of 3
6.   Members' contracts were not signed before service hours were earned.
     On August 29, 2005, our State suffered the worst natural disaster in our nation's history.
     Our schools were certainly not immune to this tragedy. Despite this calamity, the
     Mississippi Department of Education remained committed to accelerating student
     achievement in our public schools. The catastrophic events of Hurricanes Katrina and
     Rita impacted every school district in the State of Mississippi.     Over 200,000 of our
     students, teachers, and families had been impacted by the storm. President George W.
     Bush issued disaster and emergency declarations for the impacted areas in Louisiana,
     Mississippi, Florida, Alabama, Arkansas and Texas. In addition, Governor Haley
     Barbour also issued a Declaration of Emergency for the State.


     On Friday, September 9, 2005 based on reports from school districts, more than 125,000
     students were out of school and 30 school districts representing 226 schools were closed.
     Katrina destroyed approximately 28 of our schools. Some 280 schools reported damages
     with 75% having major damage including three to four feet of water. Due to the
     extreme devastation and demolition of some of the schools within the school districts,
     we had to rebuild and restore our AmeriCorps efforts.



     MOE requested a waiver from the Corporation in an effort to operate outside the
     parameters of the AmeriCorps 2005~2006 provisions. Hurricane Katrina had an adverse
     effect on the entire State of Mississippi. Several AmeriCorps Members were displaced
     for months and were forced to try and replace important documents needed for the
     program, such as driver's license, birth certificate, social security card, etc. Therefore,
     Members were allowed to count time beginning August I, 2005 in an effort to assist
     with obtaining the required 1700 service hours. This request was granted by our
     AmeriCorps Program Officer during this traumatic Program Year.

7.   Member contracts lacked Corporation required clauses on Civil Rights and Equal
     Opportunity.
     The clause is included in the AmeriCorps Member Handbook that is distributed and
     reviewed during Pre~Service Orientation Training. MOE has made the required
     revision to include the clause in the 2008~2009 Member Contract. After all required
     signatures have been secured; each Member is mailed a copy of their contract.

8.   Member files did not include Mid-Term and End-of~Term Evaluation Forms.
     The AmeriCorps Education Awards Program 2005 and 2006 Grant Provisions was
     referenced regarding this issue: Page 3, Section 1. Changes to the 2005 and 2006
     AmeriCorps Education Awards Program (EAP) Provisions states, "The following sub~
     sections have been deleted from both the 2005 and 2006 EAP Provisions: Section IV. E.
     Training, Supervision and Support - Performance Reviews."




                                                                                      Page   2   of 3
9.    MDE did not complete member enrollment and exit forms and enter them into WBRS
      in a timely manner.
      During the CNCS AmeriCorps monitoring visit Oanuary 22-23, 2007) that was
      conducted by our AmeriCorps Program Officer, he noted in his Monitoring Visit
      Feedback Letter that MDE staff reported being unclear about the 30-day rule for
      enrollment and exits. MDE was instructed to develop and implement a written
      procedure to ensure that all program staff is aware of the 30-day rule, and to ensure that
      all Members are properly enrolled and exited in WBRS within 30 days. The 30-day rule
      is listed in the AmeriCorps Member Handbook. During Pre-Service Orientations, site
      visits, and other trainings, Members are reminded of the 30-day rule. As a reminder,
      none of the previous six (6) AmeriCorps Directors attended the New Directors'
      Training, nor did Program Staff.

10.   MDE drew down more funds than entitled to in Program Year 2005-2006.
      The MDE Accounting Office has adjusted the overdrawn amount and applied it to the
      appropriate Program Year of 2006-2007.




NOTE: Additional information was provided to OIG and CNCS offices under separate
      cover.




                                                                                      Page 3 of 3
                APPENDIX B


                RESPONSE OF
CORPORATION FOR NATIONAL & COMMUNITY SERVICE
              TO DRAFT REPORT
                                 NATIONAL&:
                                 COMMUNITY
                                 SERV ICE t'lZC


To:

From:



Cc:            Jerry Bridges, Chief   I  cial Officer
                                          ·


               Frank Trinity, General Counsel
               Sherry Blue, Audit Resolution Coordinator

Date:          August 4, 2008

SUbj:          Response to OIG Draft of Agreed-Upon Procedures Review of Education
               Award Program Grants Awarded to the Mississippi Department of
               Education


Thank you for the opportunity to review the draft Agreed-Upon Procedures review of the
Corporation's Education Award Program grants awarded to the Mississippi Department
of Education. Weare only addressing five of the findings at this time. We will respond
to all recommendations in our management decision when the final audit is issued and we
have worked with the Department of Education to resolve all of the findings.

In response to the auditors' assertion that members accumulated employee paid hours as
AmeriCorps hours on their timesheets, we are looking into the issues raised and will
work to ensure that the program is in compliance with their approved grant award.

Second, the auditors questioned living allowance payments made to members attributable
to hours served before they signed their contracts. In some cases, the auditors also
questioned education awards by applying the criteria of excluding hours served prior to
the signature dates on member service contracts. As we have noted in other recent audits,
the Corporation does not agree that the date the contract is signed is an appropriate
criterion to disallow living allowances or education awards based solely on service hours
having been performed before a participant signed a member service contract. The audit
report does not provide any evidence that the members engaged in inappropriate service
        l
activities or that they served outside of the period of performance of the grant. The only
issue raised by the audit report is whether service hours may be recorded prior to an
individual signing a member contract. In these circumstances, the audit report does not
document a condition that warrants the disallowance of either living allowances or
education awards.



                                                    *
                                                                                       US~===:.
                        1201 New York Avenue, NW    Washington, DC 20525
                              202-606-5000    *
                                              www.nationalservice.org
                                                                                       Freedom Corps
                       Senior Corps   * AmeriCorps * Learn and Serve America           The President's Call to Service
Neither the national service legislation nor implementing regulations mention a member
contract as a pre-condition for serving as an AmeriCorps member. The grant provisions
require a member contract for the purpose of informing members of their rights and
responsibilities and as an element of establishing an obligation in the National Service
Trust, but not as a pre-condition for recording service hours.

The only criteria referenced by the audit report are the grant provisions. The provision
itself defines enrollment, not the service start date, and does not state that the member
contract signature date must coincide with the term of service start date. In fact, the
provision, in Section IV C.I.a.iii says that an individual is enrolled when "the individual
has begun a term of service;" and, the provisions in C.I.d. state "Member Enrollment:
Within 30 calendar days of the member starting service the program must complete and
approve the enrollment." Thus, the provision itself describes enrollment as occurring
subsequent to the beginning of the term of service. Read in its entirety, the criteria for
this finding is a requirement that the grantee be diligent in the overall enrollment process
for its AmeriCorps members within a reasonable time after they have begun service.
Thus, there is no indication that this provision in any way defines criteria attributable to
an AmeriCorps member's ability to perform service toward their commitment.
Therefore, we cannot concur that the performance of service prior to signing a member
contract is an appropriate basis upon which to question education awards. We revised the
provisions in 2008 to eliminate any ambiguity regarding contract and enrollment
requirements.

Third, the auditors questioned education awards for seven members because the member
files had no documentation to support evidence of high school diplomas or other
equivalency certifications. As we have noted in our discussions on this criteria, we
recommend that the OIG revise its audit procedures. The Corporation's regulations allow
programs to accept self-certification from applicants that they have a high school
diploma. There is no requirement that the member file contain a copy of the diploma.
F or example, a self-certification could be obtained on application or enrollment forms.

Fourth, the auditors also noted that member contracts did not contain required clauses on
civil rights and equal opportunity, quoting the Grant Provisions at section V.F.3 which
stipulate that programs must provide members with information on civil rights and equal
opportunity. However, Section IVA.E.2 of the Provisions contains the minimum
requirements for member contracts and those two requirements are not included in the
list. The full text of the Provisions the auditors relied on at Section V.F.3 states that the
"grantee must include information on civil rights requirements, complaint procedures and
the rights of beneficiaries in member contracts, handbooks, manuals, pamphlets, and post
in prominent locations, as appropriate." (emphasis added) As long as the program has
included the required information in one of the required formats, the program is in
compliance. As noted in the response from the Department of Education, "The clause is
included in the AmeriCorps Member Handbook that is distributed and reviewed during
Pre-Service Orientation Training."
Finally, the auditors noted that the program did not conduct member evaluation~ as              ,       I




required in the AmeriCorps regulations. The Education Award Program is a fii ed price               I       •




grant under which many of the requirements for managing AmeriCorps grants    are        .,\ .
waived, including, for many years, the requirement to conduct member evaluations. The
Corporation funded EAP grants under its innovative programs initiatives until 2004. The
Corporation's appropriation's act for fiscal year 2004 allowed the Corporation to
administer EAP grants as fixed price awards under the AmeriCorps appropriation, but
exempted them from some of the Ameri Corps requirements, such as the required
provision of a living allowance and matching requirements. The appropriations statute
did not specifically exempt EAPs from the end-of-term evaluation required by statute to
determine whether a member's service was satisfactory, and thus whether the member is
eligible to serve a subsequent term. Thus, as of fiscal year 2004, EAPs were subject to
the end-of-term evaluation requirement like other Subtitle C programs. However, in
applying new requirements, the Corporation neglected to inform EAPs that they were
henceforth required to conduct member evaluations and, in fact, continued to advise
EAPs that this requirement did not apply. The Corporation takes full responsibility for
any misi~ormation - or lack of notice - provided to EAP grantees, and anticipates
allowing any costs questioned solely because a member did not receive an evaluation.
We have and will continue to take measures to ensure that EAP grantees conduct
evaluations as required under the regulations in the future.

The Corporation will address the remaining questioned costs and other findings during
audit resolution after the audit is issued as final.
